Mem
  morandum from
              m the Office of th
                               he Inspector Ge
                                             eneral



Ma
 ay 14, 2013

And
  da A. Ray, LP
             L 3K-C

 EQUEST FOR MANAGE
RE                EMENT DEC
                          CISION – EV
                                    VALUATION 2012-14523
                                                       3 – REVIEW
                                                                W OF
CO
 OAL AND GA
          AS OPERAT
                  TIONS EMER
                           RGENCY PR REPAREDNNESS AND RRESPONSE E



Atta
   ached is the
              e subject fina
                           al report for your
                                         y    review and manage    ement decission. You arre
res
  sponsible forr determining
                           g the necess  sary actions to take in re
                                                                  esponse to o our findings.
Ple
  ease advise us of your management
                           m             t decision wiithin 60 dayss from the da
                                                                               ate of this re
                                                                                            eport.

Info
   ormation con
              ntained in th
                          his report ma ay be subjecct to public disclosure. P
                                                                             Please advisse us
of any
   a sensitivee informationn in this repo
                                        ort that you rrecommend be withheld  d.

If you
   y have any  y questions or                       ndings, plea
                            o wish to discuss our fin          ase contact H
                                                                           Heather R.
Kullisek, Managger, Evaluatiions, at (423
                                        3) 785-4815 or Greg Stin
                                                               nson, Directo
                                                                           or, Evaluatio
                                                                                       ons,
(8665) 633-73677. We appreeciate the co ourtesy and cooperation received fro
                                                                           om your stafff
durring the audiit.




Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
 (A
  Audits and Evaluations)
              E
ET 3C-K

HR
 RK:FAJ
Atta
   achment
cc (Attachmentt):
     James R. Dalrymple, LP L 3K-C
     Peyton T. Hairston, Jrr., WT 7B-K
     Joseph J. Hoagland, WTW 7C-K
     William D. Johnson, WT
                          W 7B-K
     Richard W.
              W Moore, ET T 4C-K
     Charles G. Pardee, WT
                         W 7B-K
     Emily J. Reynolds,
              R         OCCP 6C-NST
     Dennis R. Spencer, LP P 3K-C
     Robert B. Wells, WT 9B-K
                          9
     Andrea L. Williams, WT
                         W 9B-K
     OIG File No.
              N 2012-145   523
 


        
 


                                 Evaluation Report
 
      of the Inspector General
Office                                                                

                                      To the Senior Vice President,
                                      Engineering, Environmental,  
                                      and Support Services
                                                                      

 

 

 


REVIEW OF COAL AND
 

 

GAS OPERATIONS
 


EMERGENCY
 



PREPAREDNESS AND
RESPONSE
 

 




 

 
 
 

 
Audit Team                                       Evaluation 2012-14523
Heather R. Kulisek                                        May 14, 2013
Alina A. Karpich


                                   
Office of the Inspector General                                                     Evaluation Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ..................................................................... i

BACKGROUND .................................................................................. 1

OBJECTIVE, SCOPE, AND METHODOLOGY .................................. 1

FINDINGS AND RECOMMENDATIONS ............................................ 2

   IMPROVEMENTS TO THE EMERGENCY PREPAREDNESS
   PROGRAMS COULD HAVE BEEN IMPLEMENTED MORE
   EFFECTIVELY .................................................................................... 3

   INCONSISTENCIES EXIST IN THE EMERGENCY
   PREPAREDNESS PROGRAMS ............................................................ 4

   TRAINING PROGRAM COULD BE MORE IN-DEPTH ............................... 5

   ADDITIONAL OBSERVATION ............................................................... 6

RECOMMENDATIONS....................................................................... 6

TVA MANAGEMENT’S COMMENTS ................................................. 7

AUDITOR’S RESPONSE.................................................................... 7


APPENDIX
MEMORANDUM DATED MAY 6, 2013, FROM ANDA A. RAY TO ROBERT E.
MARTIN




Evaluation 2012-14523
                     Evalu
                         uation 201
                                  12-14523 – Review
                                                  w of Coal and Gas
                                                                  s
                    Operations Emeergency P
                                          Preparednness and
                                                          d Response
                                 EXECUTIV VE SUMM MARY

       Why the
             e OIG Did This
                       T    Review
                                 w

           Theree have been a numberr of recent iincidents re     equiring em
                                                                            mergency
           respoonse at Tennnessee Va  alley Authorrity (TVA) ccoal plants, including th he
           ash spill
                s at Kings   ston Fossil Plant and ffires at mulltiple sites. The Officee of
           the In
                nspector Ge eneral issueed a reporti following tthe ash spilll at Kingsto
                                                                                        on
           that noted
                n      “Therre did not exxist for the TVA Fossil Power Divvision[ii] the
           same e stringent emergency
                            e             preparedn ess and pla   anning prog gram as dooes
           for TV
                VA’s nuclea ar and hydrroelectric fa acilities.” Th
                                                                  hat report ccontained
           recommmendation  ns for improoving emerg   gency prep  paredness, which are
           discussed in mo ore detail latter. This reeview was iinitiated to a assess TVAA’s
           coal and
                 a gas flee  et emergen ncy prepare  edness and  d response. The objecctive
           of this
                 s review waas to determmine if Coa l Operation   ns and Gas Operationssiii
           have made prog  gress in their Emergen    ncy Prepare  edness and d Response e
           Progrram since the ash spill at Kingsto   on.

       What the
              e OIG Foun
                       nd

           Our review found although progress h   has been m made in Eme   ergency
           Prepa aredness and Response, the imp   provementss could have   e been
           impleemented mo ore effective
                                       ely. There are also ad  dditional im
                                                                          mprovementts
           that could
                c     be maade. A new w position w
                                                 was recentlyy created th  hat will provvide
           goverrnance andd oversight for
                                       f the eme  ergency pre  eparednesss and respo   onse
           progrram; howevver, the possition has noot been fille
                                                               ed. Also, wwhile the Co oal
           and Gas
                G Genera   ation Emerg gency Operrations Plan  n was formalized in
           April 2012, manaagement att three of thhe six sites that we spo oke with we  ere
           unawware of the plan.
                           p

           Throu ugh intervie
                            ews and revview of documentation  n, we found a lack of
           consistency in how emerge  ency preparredness an   nd responsee are handle
                                                                                    ed
           betwe een the site
                            es. We found inconsisstencies in how the sites
           (1) deeveloped an nd manageed site emergency resp   ponse plans and
           (2) inv
                 volved locaal responde
                                      ers. Manag   gement is awware of a la
                                                                          ack of
           consistency; how wever, therre is no form
                                                   mal plan to address the
           inconnsistencies.

           A limiited numbe
                          er of person
                                     nnel have re
                                                eceived National Incid
                                                                     dent
           Mana agement Syystem training that cou
                                                uld improve
                                                          e emergenccy

i
      2008-12283--01 – Kingston Fossil Plant As  sh Slide Interim
                                                                m Report.
ii
      Fossil Powerr Division is noww Coal Operations and Gas O  Operations.
iii
      Gas Operatio
                 ons was included in this revie ew because gass sites co-locatted with coal sites share
      emergency plans.
                 p        In addition, the Coal an
                                                 nd Gas Genera  ation Emergency Operations Plan covers bo
                                                                                                        oth
      Coal and Ga
                as Operations.
                                                                                                        Page i
                     Evalu
                         uation 201
                                  12-14523 – Review
                                                  w of Coal and Gas
                                                                  s
                    Operations Emeergency P
                                          Preparednness and
                                                          d Response
                                 EXECUTIV VE SUMM MARY

           prepa
               aredness att the sites. Coal Operrations and Gas Opera     ations are in
                                                                                      n
           phasee one of a three-phase
                           t          e training p
                                                 plan to deve elop a moree in-depth
           progrram. We also found th here is limite
                                                   ed training related to tthe site-spe
                                                                                      ecific
           emergency resp ponse plans s.

           An addditional co
                           oncern was raised at o one site thatt the role off Incident
           Comm  manderiv is generally in addition tto the role a
                                                                as Shift Operations
           Supervisor. The  e concern at
                                      a one site w was that the e training re
                                                                            equired for
           incide
                ent commanders was a significan    nt commitm  ment in addittion to the d
                                                                                        daily
           work load of a Shift
                           S    Operations Superrvisor. Splittting time between the    e
           roles could prevent the Shift Operation  ns Supervissor from pe  erforming either
           role to
                 o the best of
                            o their abilities.

      What the
             e OIG Reco
                      ommends

           We re
               ecommend the Seniorr Vice Presiident, Engin
                                                         neering, En
                                                                   nvironmenta
                                                                             al,
           and Support
               S       Serrvices:

              Ta
                ake steps too increase the consisttency of thee Emergenccy
               Prreparednesss and Resp ponse Prog gram includ ding:
               - Revising emergency   y plans to in
                                                  nclude conssistent inforrmation in a
                   concise, easily
                            e      acce
                                      essible form
                                                 mat.
               - Communicating with   h each site’ss local resp
                                                              ponders to ddetermine
                   resource needs and assist withh planning.
              Coontinue to work
                            w    towardd a more in
                                                 n-depth eme  ergency pre
                                                                        eparednesss
               prrogram thro
                           ough the thrree-phase ttraining pro
                                                             ogram.
              Work
               W    in conju
                           unction with h the sites tto:
               - Consider adding the   e site-speciffic emergenncy responsse plan into
                                                                                     o
                 training, drills,
                           d       and/o
                                       or tabletop e
                                                   exercises too provide m
                                                                         more
                 experienc ce with eme ergency ressponse plan  ns.
               - Evaluate ways to ba   alance the t ime commiitments betw ween the rooles
                 of Shift Operations
                          O            Supervisor
                                       S             and Inciden
                                                               nt Comman nder or
                 designate e another position to sserve as Inccident Commander. 




iv
     This Incidentt Commander is the individua  al responsible fo
                                                                or all incident a
                                                                                activities, includ
                                                                                                 ding developing
                                                                                                               g
     strategies an
                 nd tactics and the ordering and release of re esources. The Incident Comm       mander has oveerall
     authority and
                 d responsibility for conductingg incident operaations and is reesponsible for m management o of all
     incident operrations at the in
                                  ncident site.
                                                                                                               P
                                                                                                               Page ii
          Evalu
              uation 201
                       12-14523 – Review
                                       w of Coal and Gas
                                                       s
         Operations Emeergency P
                               Preparednness and
                                               d Response
                      EXECUTIV VE SUMM MARY

TVA Man
      nagement’’s Commen
                       nts

  TVA manageme
        m         ent agreed withw the find  dings and rrecommend dations in th
                                                                              his
  reporrt except forr the finding
                                g regardingg time comm  mitment for the Shift
  Opera ations Supeervisor. Ac  ccording to TVA management, this is a conccern,
  but it appears to
                  o be an isola  ated comm ment and no ot a widesprread condition.
  Howe ever, there are plans to  o investigatte the time commitment for training
  and balance
       b        of work
                   w      load fo
                                or the Shift Operationss Superviso or. See the
  Appendix for TV VA managem     ment’s commplete respo onse.

Auditor’s Respons
                se

  The OIG
      O concurrs with TVA
                        A managem ent’s comm
                                           ments.




                                                                            P
                                                                            Page iii
Office of the Inspector General                                                             Evaluation Report


BACKGROUND
Following the ash spill at Kingston Fossil Plant in December 2008, Tennessee
Valley Authority’s (TVA) Office of the Inspector General (OIG) conducted a
review, 2008-12283-01 Kingston Fossil Plant Ash Slide Interim Report, which
resulted in multiple findings related to Fossil Power Group’s emergency
preparedness. The resulting recommendations included the implementation of
National Incident Management System (NIMS), emergency response training,
and implementation of emergency response management best practices.

NIMS provides a systematic, proactive approach to guide departments and
agencies at all levels of government, nongovernmental organizations, and the
private sector to work seamlessly to prevent, protect against, respond to, recover
from, and mitigate the effects of incidents,1 regardless of cause, size, location, or
complexity, in order to reduce the loss of life and property and harm to the
environment. NIMS provides the template for the management of incidents.

Coal Operations and Gas Operations have a combined emergency response
plan, Coal and Gas Generation Emergency Operations Plan CGO-EP-35.001
(Generation Emergency Operations Plan), which is meant to provide a fully
coordinated response framework within a common organizational structure to
safely and effectively respond to all types of emergencies that affect Coal
Operations and Gas Operations. This Generation Emergency Operations Plan
was implemented in April 2012. In addition, each site has a site-specific
emergency response plan. The purpose of the site-specific plan is to (1) protect
facility and contractor personnel during natural disasters, general emergencies,
and other contingencies; (2) enable facility response personnel to address
emergencies as they arise in a safe, environmentally responsible, and effective
manner; and (3) manage risk to employees, contractors, visitors, and plant
property and resources, as well as citizens of the Tennessee Valley and its
resources.

OBJECTIVE, SCOPE, AND METHODOLOGY
There have been a number of recent incidents requiring emergency response at
TVA fossil plants, including the ash spill at Kingston and fires at multiple plants.
This review was initiated to assess TVA’s coal and gas fleet’s2 emergency
preparedness.

The objective of this review was to determine if Coal Operations and Gas
Operations have made progress in their Emergency Preparedness and
Response Program since the ash spill at Kingston. This review looked at the

1
    An incident is an occurrence, natural or manmade, that requires a response to protect life or property.
2
    Gas Operations was included in this review because gas sites co-located with coal sites share
    emergency plans. In addition, the Generation Emergency Operations Plan covers both Coal and Gas
    Operations.
Evaluation 2012-14523                                                                                  Page 1
Office of the Inspector General                                                                 Evaluation Report


current status of emergency preparedness with respect to both Coal Operations
and Gas Operations.

To achieve our objective, we:

    Reviewed regulations and TVA processes to determine the requirements for
     emergency preparedness.
    Interviewed key personnel including plant managers at the sites in our sample
     below to determine what is being done to prepare for emergencies.
    Assessed the consistency and completeness of a sample of coal and gas
     sites’ emergency response plans. A judgmental sample of 5 sites (out of
     19 total coal and/or gas sites3) was selected based on location, plant size,
     and other distinguishing factors. The following plants were selected for our
     review:

                       Figure 1: Sites Selected for Judgmental Sample

                  Plant                             Type                              Location

          Allen Fossil Plant                   Coal and Gas                          Tennessee

         Colbert Fossil Plant                  Coal and Gas                           Alabama

        Kingston Fossil Plant                        Coal                            Tennessee
         Magnolia Combined
                                                     Gas                             Mississippi
          Cycle Gas Plant
        Shawnee Fossil Plant                         Coal                             Kentucky


This review was conducted in accordance with the Quality Standards for
Inspection and Evaluation.

FINDINGS AND RECOMMENDATIONS
The OIG report issued following the ash spill at Kingston noted that “There did
not exist for the TVA Fossil Power Division[4] the same stringent emergency
preparedness and planning program as does for TVA’s nuclear and hydroelectric
facilities.” The current review found that although progress has been made in
Emergency Preparedness and Response, improvements could have been
implemented more effectively. In addition, opportunities to improve the program
still exist in the areas of site consistency and training. Through interviews and
review of documentation, we found a lack of consistency in how emergency
preparedness is handled between the sites. Also, training more personnel in
NIMS and adding training opportunities could build a more in-depth emergency

3
    For the purposes of this report, a site is a physical location regardless of the number of plants at that site.
4
    Fossil Power Division is now Coal Operations and Gas Operations.
Evaluation 2012-14523                                                                                      Page 2
Office of the Inspector General                                                            Evaluation Report


preparedness program. An additional concern was raised during interviews
concerning the responsibilities of the Shift Operations Supervisors. The roles
specified for Incident Commanders5 are generally in addition to their jobs as Shift
Operations Supervisors, and there were concerns that the training was a
significant commitment in addition to the daily work load.

IMPROVEMENTS TO THE EMERGENCY PREPAREDNESS
PROGRAMS COULD HAVE BEEN IMPLEMENTED MORE
EFFECTIVELY
The OIG report issued following the ash spill at Kingston noted that “There did
not exist for the TVA Fossil Power Division the same stringent emergency
preparedness and planning program as does for TVA’s nuclear and hydroelectric
facilities.” The emergency preparedness programs of Coal Operations and Gas
Operations made improvements since the 2008 ash spill at Kingston. However,
the improvements could have been implemented more effectively. While a new
position was recently created to provide governance and oversight for the
emergency preparedness and response program, the position has not been
filled. Also, while they have formalized the Generation Emergency Operations
Plan, management at three of the six sites we spoke with were unaware of the
plan.

A 2009 report issued by the OIG following the Kingston ash spill included a
recommendation related to implementation of emergency response management
best practices. One of the best practices outlined in the report was a
“comprehensive emergency management position at the executive level.”
Following the 2009 report, there were specific positions for the management of
emergency preparedness and response. However, at the time of our review, the
specific positions no longer existed, and this role was being filled by a Senior
Program Manager whose job description did not identify Coal Generation’s or
Gas Generation’s emergency preparedness and response as a responsibility.
According to the Senior Program Manager who had held this position since 2011,
the job duties also reached outside the handling of emergency preparedness and
response. In January 2013, a position specifically for emergency preparedness
and response was approved; however, it is not as an executive level position and
has not been filled.

At the time of this review, there were still managers at the sites who were
unaware of the Generation Emergency Operations Plan that was issued in
April 2012. As of October and November 2012, the site management at three of
the six plants6 that we interviewed were unaware of the plan and its
requirements.

5
    This Incident Commander is the individual responsible for all incident activities, including developing
    strategies and tactics and the ordering and release of resources. The Incident Commander has overall
    authority and responsibility for conducting incident operations and is responsible for the management of
    all incident operations at the incident site.
6
    We spoke with management on both the coal and gas sides at Allen Fossil Plant.
Evaluation 2012-14523                                                                                 Page 3
Office of the Inspector General                                                       Evaluation Report


INCONSISTENCIES EXIST IN THE EMERGENCY
PREPAREDNESS PROGRAMS

Through interviews and review of documentation, we found a lack of consistency
in how emergency preparedness is handled between sites. There is
inconsistency in the development and management of the sites emergency
response plans. Through interviews with site management, we determined
involvement of local responders is also handled differently between sites.
Management is aware of the lack of consistency; however, there is no formal
plan to address the inconsistencies.

We reviewed the site-specific emergency response plans for consistency and
completeness. We found plans varied in detail and in length from 113 to
236 pages. Pertinent information such as the actions to be taken in an
emergency was not consistently found under the same sections of the plans. In
both the Kingston and Allen Fossil Plant emergency response plans, there is an
appendix for “Logistics (Life Support).” The purpose of this procedure is to
provide information about life support measures necessary for employees who
cannot leave the site and responders who are required for response to longer-
term disasters/emergencies. The other three sites in our sample did not have
this appendix. Emergency plans should contain the same site-specific
information in a consistent manner. This would assist with plan updates and
ensure all plans contain the necessary information. This would also make it
easier for personnel transferring between sites to easily access the information in
an emergency situation.

Through the interviews conducted, we found the involvement of local responders
varied between sites. Whereas one site believed the emergency responders
should not have a copy of the emergency response plan for security purposes, at
least one other site supplied local responders with a copy. Also, when asked
about the amount of contact with local responders, management at the sites
were only able to describe contact mainly during the annual drills at the sites. At
one of the sites, the local responders had requested more time on-site to become
more familiar with the site. According to management, funding is an issue since
there is a cost associated with having local responders participate in the drills.

TVA management has acknowledged the need for consistency within the
program; however, no formalized plan has been established to address the
inconsistencies discussed above. Prior to a change in the Senior Program
Manager’s7 responsibilities, there were tentative plans to work with site
management to generate an emergency response plan that could be
standardized across the fleet.




7
    The Senior Program Manager we interviewed during our review has moved into a new position.
Evaluation 2012-14523                                                                            Page 4
Office
O      of the Insp
                 pector Generall                                                          Evaluation R
                                                                                                     Report


TRAINING
T      G PROGR
             RAM COU
                   ULD BE M
                          MORE IN-D
                                  DEPTH
In
 ncreasing th
            he number of employe    ees trained to respond  d to emergeencies and
broadening the scope of  o training opportunitie
                                    o           es could improve emerrgency
preparednes ss at the sittes. We fouund there iss a limited n
                                                            number of N NIMS traine
                                                                                  ed
personnel; however,
           h          there is a plaan in place tto train more employe ees.
Furthermore
F          e, there is limited trainiing related to the site-specific em
                                                                       mergency
re
 esponse plaans, which could incre  ease respon nse time an nd confidennce in an
emergency.

Through
T           inte
               erviews withh TVA man nagement, w we found th here are lim
                                                                        mited NIMS
trrained personnel at ea  ach site. While
                                    W      TVA mmanagemen    nt stated the
                                                                         ey are NIMS  S
compliant, th  hey have limmited persoonnel at eacch site whoo have rece eived the NIIMS
trraining. They rely on trained
                           t       pers
                                      sonnel withhin each reggion to be aavailable for
duty on a regular basis   s to respondd to emergeencies. A three-phase   e training pllan
has been de    eveloped too provide tra
                                      aining to moore personn nel, providing them with a
more
m       in-depth program m. Phase on  ne of the plan is expeccted to be ccompleted iin
2013. Figurre 2 below showss      a co
                                     omparison b between the  e number o of employee es
trrained as off October 2012
                          2     in each NIMS cou  urse level fo
                                                              or Coal Generation, G Gas
Generation,
G               and River Operations  s. The Senior Program  m Manager also stated   d
th
 hat it is difficult to main
                           ntain complliance with the training
                                                             g requireme ents of NIMMS
because the   e requireme ents often change. Ass seen in the  e figure bellow, River
Operations,
O               which was identified as
                                      a having a stringent e  emergency preparedness
program, ha   as far more employees   s that have taken the NNIMS trainin ng coursess
th
 han Coal Operations and   a Gas Op   perations coombined.

     Figure 2:
            2 Comparrison Betw
                             ween the Nu
                                       umber of EEmployeess Who Have
                                                                   e
               Comp
                  pleted Fourr Key NIMSS Training Courses8




8
    ICS-100 is In
                ntroduction to In
                                ncident Command System (IC  CS). ICS-200 is ICS for Sing
                                                                                       gle Resources.
    ICS-700 is NIMS:
               N      An Introd              800 is National Response Fra
                                duction. ICS-8                          amework: An In  ntroduction.
Evaluation
E          2012
              2-14523                                                                               P
                                                                                                    Page 5
Office of the Inspector General                                       Evaluation Report


In addition, one plant manager expressed a concern that the formalized training
focuses on NIMS and not necessarily on actual emergency response. According
to the Senior Program Manager, the standard number of drills held at each site is
two per year. Incorporating site-specific information into training, drills, and/or
tabletop exercises would provide the opportunity to become more familiar with
the site-specific emergency response plan. The Senior Program Manager’s
concern was the cost associated with additional drills. When local responders
have to come on-site, an expense is incurred. Increasing site personnel’s
familiarity with the site-specific emergency response plan could decrease
response time and increase personnel’s confidence during emergency situations.

ADDITIONAL OBSERVATION
During the course of the review, there was a potential area for improvement
identified in our interviews related to the responsibilities of the Shift Operations
Supervisors. The roles specified for Incident Commanders are generally in
addition to their jobs as Shift Operations Supervisors, and there were concerns at
one site that the training was a significant commitment in addition to the daily
work load. When discussed with the Senior Program Manager and Program
Advisor, they felt the Shift Operations Supervisors were in the best position for
the job since there is always one on-site. However, splitting time between the
roles could prevent the Shift Operations Supervisor from performing either role to
the best of their abilities.

RECOMMENDATIONS
We recommend the Senior Vice President, Engineering, Environmental, and
Support Services:

   Take steps to increase the consistency of the Emergency Preparedness and
    Response Program including:
    - Revising emergency plans to include consistent information in a concise,
       easily accessible format.
    - Communicating with each site’s local responders to determine resource
       needs and assist with planning.
   Continue to work toward a more in-depth emergency preparedness program
    through the three-phase training program.
   Work in conjunction with sites to:
    - Consider adding the site-specific emergency response plan into training,
      drills, and/or tabletop exercises to provide more experience with
      emergency response plans.
    - Evaluate ways to balance the time commitments between the roles of Shift
      Operations Supervisor and Incident Commander or designate another
      position to serve as Incident Commander.


Evaluation 2012-14523                                                           Page 6
Office of the Inspector General                                   Evaluation Report


TVA Management’s Comments – The Senior Vice President, Engineering,
Environmental, and Support Services provided a written response to a draft of
this report. TVA management agreed with the findings and recommendations in
this report except for the finding regarding time commitment for the Shift
Operations Supervisor. According to TVA management, this is a concern, but it
appears to be an isolated comment and not a widespread condition. However,
there are plans to investigate the time commitment for training and balance of
work load for the Shift Operations Supervisor. See the Appendix for TVA
management’s complete response.

Auditor’s Response – The OIG concurs with TVA management’s comments.




Evaluation 2012-14523                                                       Page 7
APPENDIX
Page 1 of 2
APPENDIX
Page 2 of 2
